Appendix A
Ninth Circuit Orders and Decisions
1) Order September 18, 2020 denying Petitions
for Panel Rehearing and En Banc hearing,
2 pages
2) Memorandum Opinion Unpublished, June
12, 2020, 3 pages

3) Order that Emilio Express is a
proprietorship and not a Corporation,
September 30, 2019, 2 pages

Total 7 pages

Case: 19-70928, 09/18/2020, ID: 11829574, DktEntry: 24, Page 1 of 2

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

SEP 18 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

EMILIO EXPRESS, INC.,
Petitioner-Appellant,

No.

19-70923

TaxCt.No. 14949-10

v.

ORDER
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.

EMILIO TORRES LUQUE; GABRIELA
MEDINA,

No.

19-70928

TaxCt.No. 14962-10
Petitioners-Appellants,
v.

COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
Before:

LEAVY, PAEZ, and BENNETT, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
The petition for panel rehearing and petition for rehearing en banc (Docket

Case: 19-70928, 09/18/2020, ID: 11829574, DktEntry: 24, Page 2 of 2

Entry Nos. 26 and 27 in Appeal No. 19-70923; Docket Entry Nos. 22 and 23 in
Appeal No. 19-70928) are denied.
No further filings will be entertained in this closed case.

2

19-70923 & 19-70928

(1 OT f)

Case: 19-70928, 06/12/2020, ID: 11719635, DktEntry: 20-1, Page 1 of 3

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

JUN 12 2020

FOR THE NINTH CIRCUIT
EMILIO EXPRESS, INC.,

No.

Petitioner-Appellant,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-70923

TaxCt.No. 14949-10

v.

MEMORANDUM*
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.

EMILIO TORRES LUQUE; GABRIELA
MEDINA,

No.

19-70928

Tax Ct. No. 14962-10
Petitioners-Appellants,
v.

COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
Appeals from a Decision of the
United States Tax Court
Submitted June 2, 2020**

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

(Z OT f)

Case: 19-70928, 06/12/2020, ID: 11719635, DktEntry: 20-1, Page 2 of 3

Before:

LEAVY, PAEZ, and BENNETT, Circuit Judges.

In these consolidated appeals, Emilio Torres Luque, Gabriela Medina, and
sole proprietorship Emilio Express, Inc., appeal pro se from the Tax Court’s orders
on cross-motions for summary judgment upholding the Commissioner of Internal
Revenue’s determinations of tax deficiencies for tax years 2003, 2004, and 2005
for Torres Luque and Medina, and tax year 2003 for Emilio Express, Inc. We have
jurisdiction under 26 U.S.C. § 7482(a)(1). We review de novo. Johnston v.
Comm ’r, 461 F.3d 1162, 1164 (9th Cir. 2006). We affirm.
The Tax Court properly granted summary judgment for the Commissioner
because petitioners failed to raise a genuine dispute of material fact as to whether
the U.S.-Mexico Tax Treaty entitled them to relief from their United States tax
liability, even assuming Torres Luque and Medina’s Mexican residency under the
treaty. See Convention Between the Government of the United States of America
and the Government of the United Mexican States for the Avoidance of Double
Taxation and the Prevention of Fiscal Evasion with Respect to Taxes on Income,
Mex.-U.S., Sept. 18, 1992, S. Treaty Doc. No. 103-7 (establishing relief for
taxpayers potentially subject to double taxation and related issues); Higgins v.
Smith, 308 U.S. 473, All (1940) (“A taxpayer is free to adopt such organization for

The panel unanimously concludes these cases are suitable for decision
without Oral argument. See Fed. R. App. P. 34(a)(2).
2

19-70923

(3 OT /)

Case: 19-70928, 06/12/2020, ID: 11719635, DktEntry: 20-1, Page 3 of 3

his affairs as he may choose and having elected to do some business as a
corporation, he must accept the tax disadvantages.” (footnote omitted)); cf.
UnionBanCal Corp. v. Comm V, 305 F.3d 976, 986 (9th Cir. 2002) (noting the
similar U.S.-U.K. Tax Convention allows both sovereigns to tax residents of the
other presuming rules preventing double taxation are followed).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
AFFIRMED.

3

19-70923

Case: 19-70923, 09/30/2019, ID: 11448648, DktEntry: 12, Page 1 of 2

FILED

UNITED STATES COURT OF APPEALS

SEP 30 2019

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

EMILIO EXPRESS, INC.,
Petitioner-Appellant,

No.

19-70923

Tax Ct. No. 14949-10

v.
ORDER
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.

EMILIO TORRES LUQUE; GABRIELA
MEDINA,

No.

19-70928

Tax Ct. No. 14962-10
Petitioners-Appellants,
v.
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
Before: Peter L. Shaw, Appellate Commissioner.
A review of appellant’s response to the July 15, 2019 order in appeal No.
19-70923 indicates that appellant Emilio Express, Inc., is a sole proprietorship.
Accordingly, the July 15, 2019 order issued in appeal No. 19-70923 is discharged.
See Sharemaster v. SEC, 847 F.3d 1059, 1066 n.4 (9th Cir. 2017) (owner who

MF/Pro Se

i

Case: 19-70923, 09/30/2019, ID: 11448648, DktEntry: 12, Page 2 of 2

operates a sole proprietorship may represent the business in a pro se capacity on
appeal).
Appellee’s motion to consolidate these appeals is granted (Appeal No. 1970923 Docket Entry No. 10, Appeal No. 19-70928 Docket Entry No. 7). Appeal
Nos. 19-70923 and 19-70928 are consolidated.
Appellee’s motion for an extension of time to file the answering brief in
appeal No. 19-70923 is granted (Docket Entry No. 11).
The Clerk shall file the opening brief received in Appeal No. 19-70923 on
July 1, 2019 (Docket Entry No. 7). The opening brief has been filed in Appeal No.
19-70928.
The consolidated answering brief is due October 17, 2019. The consolidated
optional reply brief is due within 21 days after service of the answering brief.

MF/Pro Se

2

Appendix B
Tax Court Orders and Decisions
1. Final Order Treaty Benefits is by a system of
credits, March 6, 2019, 1 page
2. Tax Court Orders granting Summary
Judgment to Commissioner, Denying
Summary Judgment to Petitioners, February
1, 2019, 10 pages
3. Decision on Deficiencies, February 1, 2019, 1
page

Total 12 pages

43

SYM

UNITED STATES TAX COURT
WASHINGTON, DC 20217

EMILIO EXPRESS, INC., ET AL.,

)
)

Petitioner(s),

)
)

v.

) Docket No. 14949-10,

14962-10.

)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)
)
)
)
)

ORDER
We recently granted summary judgment and entered decisions in the Commissioner’s
favor. Petitioners in both cases moved for reconsideration on February 25, 2019. Because the
motion seeks to undo a decision, it is better titled as a motion to vacate. The gist of the motion is
that the Court erred by not granting petitioners what they call the benefits of the tax treaty
between the United States and Mexico. As explained in the order ruling on the motions for
summary judgment, the Court is not denying them any benefit under the Treaty — it just came to
the conclusion that the benefit of the Treaty is relief by each country for residents of the other
from the burden of double taxation on the same income through a system of tax credits. Which
this country, at least, has in place.
The benefit of the treaty is not exemption from tax based on residence. It is therefore
ORDERED that petitioner’s motion to reconsider is recharacterized as petitioner’s
motion to vacate. It is also
ORDERED that petitioners’ motion to vacate is denied.
(Signed) Mark V. Holmes
Judge
Dated: Washington, D.C.
March 6, 2019

SERVED Mar 06 2019

40

UNITED STATES TAX COURT
WASHINGTON, DC 20217

EMILIO EXPRESS, INC., ET AL.,

PA

)
)

Petitioner(s),

)
)

v.

) Docket No. 14949-10,

14962-10.

)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)
)
)
)
)

ORDER
These are unusual deficiency cases that all parties agree can be decided
through summary judgment. They arise from four different tax years, and all
involve a common question of law — did a decision in these cases by the Treasury
Department’s competent authority under the United States - Mexico tax treaty
(Treaty)' necessarily relieve petitioners of any liability for U.S. income tax?
There are no similar cases that either party or the Court’s own research could
find.

The formal citation is the Convention Between the Government of the United States of
America and the Government of the United Mexican States for the Avoidance of Double
Taxation and the Prevention of Fiscal Evasion with Respect to Taxes on Income, Mex.-U.S.,
Sept. 18, 1992, S. Treaty Doc. No. 103-7 (amended by Protocols, Sept. 8, 1994; Nov. 26, 2002).

SERVED Feb 01 2019

-2-

Background
A.
There are two cases in this consolidated group. The first was begun by
Emilio Express for the tax year 2003. Emilio Express was incorporated that year
by Emilio Torres Luque, a Mexican national who is also a permanent resident of
the United States. He is the sole shareholder, and he views the corporation as his
“alter ego.” Torres (following the parties’ lead, we will adhere to Mexican naming
customs) is married to Gabriela Medina and they filed joint returns for the tax
years 2003 through 2005. The Commissioner also audited those returns and
determined that they owed a substantial deficiency for each year.
Emilio Express is a trucking corporation that specializes in moving cargo
across the international border between Tijuana and southern California. It is
authorized to move the cargo a fixed distance from the border, and its trucks
generally return to Mexico empty. Torres incorporated Emilio Express in 2003 to
hold at least part of what had been his sole proprietorship business; he also chose
to make Emilio Express a C corporation for 2003. This was an unusual choice and
Torres seems to have converted Emilio Express to an S corporation for the 2004
and 2005 tax years, before finally dissolving it in 2009.2
On its tax return for 2003, Emilio Express reported slightly more than
$500,000 in gross receipts; $350,000 in deductions; and (quite unusually for an
industry in which one might think there would be little inventory) more than
$200,000 in a cost-of-goods-sold (COGS) adjustment.3
2 A C corporation is a corporation not taxed under subchapter S of the Internal Revenue Code. A
C corporation’s net income is taxed twice — first at the corporate level, and again at the
individual level when the shareholders receive distributions of profits in the form of dividends.
An S corporation, on the other hand, is a corporation that meets the requirements of I.R.C. §
1361 and elects to be treated as an S corporation. An S corporation’s income and losses, like a
partnership’s, flow through to its shareholders, who then pay income tax. See I.R.C. § 1366.
This is beneficial from a tax perspective because it generally allows the corporation to avoid
corporate-level tax. I.R.C. §§ 1362(a), 1363(a). By making Emilio Express a C corporation,
Torres was essentially volunteering to pay an additional layer of tax.
3 COGS is the costs of acquiring inventory, through either purchase or production. Treas. Reg.
§§ 1.61 -3(a), 1.162-l(a). It is technically an exclusion from gross income rather than a
deduction but is “deducted from gross sales in computing gross income.” Treas. Reg. § 1.1621(a).

-3-

In 2003 both Torres and his wife had been green-card holders for more than
a decade, though both of them retained their Mexican citizenship at least until
2010. They filed their U.S. income tax returns for all the years at issue from their
home near San Diego. They sent their children to public school nearby in Chula
Vista and spent more than half of each year in the United States.
The Torreses’ returns were also a bit unusual. On their return for 2003, they
reported $31,680 in “other income” comprised of income from Emilio Express and
$26,000 in “gross foreign source income,” which seems to have been mostly wages
from some unspecified job in Mexico. After application of the foreign tax credit,
they reported tax due of only $802.
On their return for 2004, they reported $20,000 as wage income from Emilio
Express and $48,000 in net income on their Schedule C, also presumably from
Emilio Express (income which they should have reported on a Schedule E if
Emilio Express was an S corporation that year). This Schedule C income was also
unusual in that it came from gross receipts not offset by any deductions or
adjustments at all. The Torreses reported no Mexican income and claimed no
foreign tax credit for this year.4
The Torreses switched preparers for their 2005 tax year, and their return for
that year seems to lack the anomalies of the other returns. Emilio Express showed
net income that flowed through to their joint return on a Schedule E. They
reported no Mexican income or payments of Mexican income tax, however, and so
claimed no foreign-tax credit.
The Commissioner chose to audit Emilio Express and the Torreses. The
anomalies triggered a wider look and the Commissioner ended up undertaking a
bank-deposit analysis that showed some unreported income. This led him to
determine rather significant deficiencies:

4 Emilio Express’s Form 1120S for 2004 featured no COGS adjustment but offset $593,000 in
gross receipts with $597,000 in deductions — most of which were for unspecified “outside
services.”

-4-

Taxpayer

Tax Year

Total Income

Deficiency

Emilio Express

2003

$279,000

$92,304

Torreses

2003

200,094

46,879

Torre ses

2004

589,273

189,801

Torreses

2005

475,884

163,539

The Commissioner also tacked on 20% penalties under I.R.C. § 6662(a).
Both Emilio Express and the Torreses responded to these determinations by filing
timely petitions. In these petitions they did not challenge the amounts of these
adjustments to income or the imposition of penalties. They instead alleged that
both Emilio Express and Torres qualified for relief under the Treaty: Emilio
Express because it lacked a “permanent establishment” in the United States, which
it claimed meant that any of its business profits had to be taxed only by Mexico;
and Torres because he fell within the definition of resident under the Treaty, and
because as he said “Mexico is where my vital interests are, thus I am a resident of
Mexico where I file income taxes.”
At about the same time, Torres submitted amended U.S. returns to the
Commissioner. These amended returns were consistent with the petitions in that
Torres stated that he had very close to zero taxable income after he combined his
income with that of Emilio Express (in effect ignoring the corporate form for all
years at issue) and asserted that it was all exempt from U.S. income tax under the
Treaty. The Commissioner refused to file these amended returns because in his
view, they were inaccurate.
We started continuing the cases as soon as they were calendared, and then
put them on hold while the Torreses sought to claim benefits under the Treaty.
They and the Commissioner did this with a referral of the matter to the “competent
authority” established under the Treaty. (This term might sound odd to those
outside the international-tax cloister, but is simply an office within the Treasury
Department that is enabled by the Treaty to communicate informally with its
counterpart in the Mexican government to try to resolve disputes about taxes owed
by the same taxpayer of these two sovereigns.)
That process began with a short letter between a deputy commissioner at the
IRS and his Mexican counterpart at the Servicio de Administration Tributaria
(SAT). Through much email and written correspondence between the IRS and the

-5-

SAT, these competent authorities pieced together the record that forms a
substantial part of the supporting documentation for these crossmotions for
summary judgment. Some of their conclusions are that neither Torres nor his wife
owned real property in Mexico, but that Torres did own several trucks in Tijuana,
including several registered in his own name that had active permits to make
deliveries within 20 km of the international boundary.
The most important finding, however, is that there was no record that Emilio
Express ever filed returns in Mexico, but that Torres did. His original Mexican
returns showed the following (all amounts are in pesos):

Tax

Year

Total income

Deductions

2003

1,684,744

1,687,478

(2,734)

0

2004

4,744,066

4,744,771

(705)

0

2005

6,004,769

5,779,304

Taxable income

225,465

28,768

Then, at about the same time that Torres tried to file amended returns with the IRS,
he did file amended returns with its Mexican counterpart. These showed
substantially changed numbers (again, all amounts are in pesos):
Taxable income

Tax

Year

Total income

Deductions

2003

7,388,036

7,475,260

(87,224)

0

2004

11,259,489

11,380,653

(121,164)

0

2005

9,384,364

10,749,433

(1,365,069)

0

An agent of the IRS’s competent authority wanted to know what the effect
of these amended returns would be, and she wrote her Mexican counterpart to ask.
He replied that “I can tell you that in terms of article 32, paragraph 4 of our Federal
Fiscal Code, an amended income tax return has the effect to replace the normal
income tax return, prevailing over the normal income tax return.” Other
correspondence confirmed that this meant the original payment of more than
Mex$28,000 was now an asset to Torres, available as an offset or refund.
This led the competent authorities to wind up their consideration. With no
Mexican tax liability for Torres or Emilio Express, the “U.S. Competent Authority

-6-

.. . concluded that the Taxpayers were not liable for taxes in Mexico during tax
years 2003 through 2005. Therefore, the U.S. Competent Authority has
determined that the Taxpayers were not subject to double taxation during tax years
2003, 2004, and 2005 and no relief is appropriate.”
Both petitioners accepted this finding.

B.
Torres says this was a victory for him. He argues that he was a Mexican
resident under the Treaty. He believes that this means that he owed tax only to
Mexico, and as proof he cites the undisputed fact that Mexico accepted the
amended Mexican returns that he submitted and that reflected this position.
Mexico’s acceptance of those returns, he adds, necessarily means that the
competent authorities agreed with his position. That his reported Mexican income
was entirely offset by Mexican deductions is good for him, but irrelevant to what
he asserts is his exemption from U.S. tax liability under the Treaty.
The Commissioner disagrees. He argues that the purpose of the referral to
the competent authorities was only to consider and decide if Torres and Emilio
Express were subject to double taxation. Because there is no dispute that neither
Torres nor Emilio Express owed any tax to Mexico, he asserts that their full
income (as determined in the notices of deficiency) is subject to U.S. tax without
adjustment.
The petitioners and the Commissioner moved for summary judgment.
Discussion
The Court will grant summary judgment if “there is no genuine dispute
as to any material fact and that a decision may be rendered as a matter of law.”
Rule 121(b). We’ll look at both motions and measure them against this standard.

A.
We can look at petitioners’ motions first. Under § 7701(a)(30) of the Code,
both Torres and his corporation are “United States persons” — Torres (and his
wife) because they are green-card holders, see 26 C.F.R. § 301.7701(b)-! (b)(1),

-7-

and Emilio Express because it is a domestic corporation, see I.R.C.
§ 7701(a)(30)©. There is no dispute about this.
Petitioners’ argument therefore depends on their satisfaction of the different
definition of “resident” under the Treaty. Here is the general definition:
For the purposes of this Convention, the term “resident of
a Contracting State” means any person who, under the
laws of that State, is liable to tax therein by reason of his
domicile, residence, place of management, place of
incorporation, or any other criterion of a similar nature.
Treaty, supra note 1, art. 4, para. 1.
We agree with Torres that this general rule defines him and his wife as
residents of both Mexico and the United States. The Commissioner does not
disagree.
Torres then points us to the next paragraph in the Treaty:
Where by reason of the provisions of paragraph 1, an
individual is a resident of both Contracting States, then
his residence shall be determined as follows:
a) he shall be deemed to be a resident of the State in
which he has a pennanent home available to him; if he
has a permanent home available to him in both
Contracting States, he shall be deemed to be a resident of
the State with which his personal and economic relations
are closer (center of vital interests);
b) if the State in which he has his center of vital
interests cannot be determined, or if he does not have a
permanent home available to him in either State, he shall
be deemed to be a resident of the State in which he has an
habitual abode;
c) if he has an habitual abode in both States or in neither
of them, he shall be deemed to be a resident of the State
of which he is a national;

-8-

d) in any other case, the competent authorities of the
Contracting States shall settle the question by mutual
agreement.
Id. at art. 4, para. 2.
Torres argues that he has a permanent home available to him in both
countries. He and his wife own their home near San Diego, and he swore in his
declaration that he also has a home next door to his parents’ house in Tijuana. In
addition to his bare statement, he attached photos and utility bills to his declaration
as proof. He also states that he was employed in the City of Tijuana’s Sanitation
Department, though the paystubs he attached to his declaration weren’t from any of
the years at issue. His wife also filed a declaration (with paystubs that were from
one of the years at issue) that show she was employed by a school on the Mexican
side of the border. (Though we note that none of her income seems to have made
its way to any of the Torreses’ U.S. returns.)
The Commissioner contests all of this. He points out that nothing in the
Torreses’ submissions undermines the status of Emilio Express as a U.S. resident
under the Treaty5 and cites the Torreses’ extensive contacts with San Diego as
proof that it is their “center of vital interests.”
The question of the Torreses’ residence is a factual one that is an essential
premise of petitioners’ motions. There is a genuine dispute about it, which means
we must deny their motions.

B.
When we analyze the Commissioner’s motions, we must assume that the
Torreses are Mexican residents under the Treaty. The Torreses argue that this is
enough for them to win. They do not agree with the competent authorities’ focus
on the question of double taxation. From their perspective, both authorities had
both sets of original and amended returns in front of them, and neither disagreed
5 It is axiomatic that when a taxpayer chooses the corporate form, he adopts both the advantages
and disadvantages that result from that choice. See Moline Props, v. Commissioner, 319 U.S.
436, 439 (1943). In other words, a taxpayer cannot simply ignore the corporate form when its
recognition becomes inconvenient.

-9-

with the Mexican authority’s decision to accept their Mexican amended returns as
filed. Those returns were premised on their Mexican residence, and they argue this
means that their total tax liability to both Mexico and the United States has to be
determined under Mexican law using Mexican deductions. If their tax liability is
zero under Mexican law, that doesn’t mean that their total income was not subject
to tax in Mexico.
Let us turn first to the language of the Treaty. What is its purpose — is it to
determine residence in ambiguous situations like this, or is it something else? The
submittal letter from the Secretary of State to the President that accompanied the
Treaty says that the Treaty’s purpose is to “cooperate to resolve issues of potential
double taxation and to exchange information relevant to implementing the
Convention and the domestic laws imposing the taxes covered by the Convention.”
Letter of Submittal from Warren Christopher, Dep’t of State, to the President of the
U.S. (May 11, 1993), S. Treaty Doc. No. 103-7. Article 26 sets up the mutual
agreement procedure that the parties in these cases used. See Treaty, supra note 1,
art. 26. That Article states that the procedure is to be used when there is “taxation
not in accordance with the provisions of this Convention.” Id. at art. 26, para. 1.
There is nothing in the Treaty that creates exemptions from taxation for
income based on residence as the Treaty defines it. What the Treaty does is
embody an agreement between the two countries that each shall relieve residents of
the other from double taxation on the same income through a system of tax credits.
This is set out in Article 24, where both countries agree that “a Contracting State
shall allow to a resident of that State ... as a credit against the income tax of that
State: a) the income tax paid to the other Contracting State by or on behalf of such
resident or citizen ...” Id. at art. 24, para 1, subpara. a.
This is why the conclusion of the competent authorities was that the
Torreses’ income was not subject to double taxation: There is nothing in the
Treaty that prohibits either country from taxing the income of residents of the
other. What is prohibited is not allowing tax credits to offset that burden.
The Torreses’ argument is based on an that, if they qualify as residents of
Mexico under the Treaty, all of their income can be taxed only by Mexico and not
by the United States, even though they are green-card holders. The Court can
sympathize with them a bit — it certainly might seem that relief from double
taxation could be more easily done by a treaty allocating to either Mexico or the
United States the right to tax particular taxpayers on particular sorts of income.
But that is not how the Treaty is set up — it is set up instead to allow both countries

- 10to subject to their tax law the entire income of the same taxpayer as long as a
system of credits is in place to prevent double taxation.
And, if the purpose of a tax treaty exercised any pull over the interpretation
of its language, one must consider the advantages of such a credit system over an
exemption system. Under an exemption system, two residents of the same country
with the same amount of income could be subject to different effective rates of
taxation — a resident with low-taxed foreign income would be subject to less total
tax than would a resident with purely domestic income. (And that would be the
situation with the Torreses and their San Diego neighbors.) With a system of
credits in place based on tax paid, there is no such advantage.
The Torreses are therefore, regardless of their status as residents of the
United States or Mexico under the terms of the Treaty, subject to tax on all their
income under the Code. If Mexico had made them pay tax on any of that income,
they might have been able to successfully use the Treaty if the Code’s own
provisions on tax credits were inadequate. But there is no dispute that they owed
no income tax to Mexico at all for any of the years in question. Neither did Emilio
Express. Neither the Torreses nor Emilio Express challenged any other aspect of
the Commissioner’s determinations in the contested notices of deficiency. That
means that it is
ORDERED that petitioners’ motions for summary judgment are denied. It is
also
ORDERED that respondent’s motions for summary judgment are granted.
The Court will enter final decisions in both cases in accord with this order.
(Signed) Mark V. Holmes
Judge

Dated: Washington, D.C.
January 30,2019

41

UNITED STATES TAX COURT
WASHINGTON, DC 20217

EMILIO TORRES LUQUE & GABRIELA
MEDINA,

)
)
)

Petitioner(s),

)
)

) Docket No. 14962-10.

v.

)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)
)
)
)

DECISION
The Court issued an order today to explain why it was granting summary judgment to the
Commissioner in this case. Following that order, it is
DECIDED that there are deficiencies and penalties due from petitioners as follows:
Year

Deficiency

Penalty IRC 6662tal

2003

$46,879.00

$9,375.80

2004

$189,801.00

$21,958.00

2005

$163,539.00

$28,679.60

(Signed) Mark V. Holmes
Judge
ENTERED:

FEB 01 2019

SERVED Feb 01 2019

No.
In the Supreme Court of the United States
Emilio Torres Luque,
Gabriela Medina,
Emilio Express Inc.,
Petitioners,
vs.
COMMISIONER OF INTERNAL REVENUE SERVICE,
Respondent.

CERTIFICATE OF COMPLIANCE WITH WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 14th, 2020

i

Imilio Torres Luque

abriela Medina

7

